Law OFFICES
BOARDMAN, CARR, PETELOS, WATKINS & OGLE, PC.
400 BoaRDMAN DRIVE
CHELSEA, ALABAMA 35043-8211

MARK S. BOARDMAN (205) 678-8000

   
 

PETELOS Post Orrice Box 382886 FACSIMILE
R BIRMINGHAM, ALABAMA 35238-2886 (205) 678-0000

INE HL: WATKINS August 5, 2020 WEBSITE

Grant H. Howarp boardmancarr.com
J- Park WYNN *ALSO ADMITTED IN DISTRICT OF COLUMBIA
WILLIAM H. HUFFMAN, UI*

Scott S. Harris, Clerk

Supreme Court of the United States
1 First Street, NE

Washington, DC 20543

RE: U.S. Supreme Court Docket Number: 20-58
Anita Smith v. Vestavia Hills Board of Education
In the United States Court of Appeals for the Eleventh Circuit (18-11626-EE)
U.S, District Court for the Northern District of Alabama (2:16-cv-00842-VEH)
Our File No: (242) 160054

Dear Mr. Harris:

Please consider this letter Respondent Vestavia Hills Board of Education’s motion to extend
the time to file its Brief in opposition to Petitioner Anita Smith’s petition for a writ of certiorari.
Respondent respectfully requests a 30-day extension of time for the filing of its brief in opposition,
from August 24, 2020 to September 23, 2020. Respondent requests such an extension of time based
on the uncertainty brought about by the COVID-19 pandemic.

Sincerely,

MakeS lou diuar—

ark S. Boardman
U.S. Supreme Court Bar Number 172983
MSB/cjm

ce: Charles E. Guerrier, Esq.
Alicia Kay Haynes, Esq.
Kenneth D. Haynes, Esq.
